January 6, 2011

VINCENT H. DEVITO, JR.
VICE PRESIDENT, CONTROLLER

JOSEPH MOELLER
MANAGER, REGULATORY REPORTING & COST ANALYSIS

SUBJECT: Audit Report – Postage in the Hands of the Public Liability Estimate
         (Report Number FT-AR-11-006)

This report presents the results of our audit of the Postage in the Hands of the Public
(PIHOP) liability estimate (Project Number 10BM002FT001). The report responds to a
request from the U.S. Postal Service’s Board of Governors Audit and Finance
Committee to review the PIHOP estimate as a result of significant changes in the
PIHOP liability at the end of fiscal year (FY) 2009. The objectives of this audit were to
review the model used to calculate the PIHOP estimate to determine if opportunities
exist for improving the model and the financial reporting and predictability of the
estimate. This audit addresses financial risk. See Appendix A for additional information
about this audit.

The Postal Service developed a process (model) to estimate the deferred revenue1 for
prepaid postage (PIHOP) at the end of a reporting period. The PIHOP estimate
represents postage sold to but not yet used by customers. The model includes separate
calculations for Forever Stamps®,2 denominated stamps,3 meters and pre-cancelled
stamps,4 and mail-in-transit (MIT)5 that, together, comprise the PIHOP estimate. The
Postal Service tracks postage sold using sales records and postage used from
statistical samples.6 At the end of FY 2009, the PIHOP liability was $2.445 billion.
1
  Income received by a business but not yet reported as earned. The Postal Service recognizes revenue when
services are rendered. Because payment is received in advance of services being performed, revenue is deferred
until the services are performed. This is classified as a liability, Deferred Revenue-Prepaid Postage, on the balance
sheet in the financial statements.
2
  Customers can use Forever Stamps to mail a 1-ounce letter regardless of when purchased and no matter how
prices change in the future.
3
  Postage money values (for example, 44¢) appear on denominated stamps.
4
  The pre-cancelled stamps deferral for FY 2009 was $12 million. Because this was an immaterial portion of the
PIHOP estimate, we did not separately evaluate it.
5
  Mail in the system at the end of each quarter.
6
  For stamp usage, management used statistical sampling recorded in the Origin-Destination Information System -
Revenue, Pieces, and Weight (RPW), the key data inputs for the stamp and mail-in-transit components of the PIHOP
estimate calculation. RPW is the primary sampling system used for estimating revenue, volume flow, weight, and for
performance measurements. For meter postage usage, management used the National Meter Accounting and
Tracking System (NMATS) which tracks all meter transactions.
Postage in the Hands of the Public Liability Estimate                                    FT-AR-11-006




Conclusion

Changes in consumer purchase and usage behaviors associated with the introduction
of the Forever Stamp explained, for the most part, recent significant fluctuations in the
PIHOP liability. Further, the Postal Service’s mandated quarterly financial reporting
highlighted the changes to the PIHOP estimate. However, we identified opportunities
that could improve the predictability and financial transparency of the PIHOP estimate.
Specifically:

       Management needs to clearly and singularly document the procedures used, the
        assumptions made, the analyses conducted, and the rationale for methods used
        to estimate the PIHOP liability.
       Management should enhance the separate calculations for the components used
        to estimate the PIHOP liability.

PIHOP Documentation

Management did not follow its white paper documenting the methodology to be used for
calculating the Forever Stamp component of the FY 2009 PIHOP estimate. This white
paper was provided to the independent public accounting firm contracted to opine on
the Postal Service’s financial statements to support the PIHOP liability estimate for the
FY 2009 financial statements. Instead, management used a separate document and the
method outlined in that one conflicted with the method in the white paper. Also,
management did not document their analysis for choosing the method for the Forever
Stamp calculation7 or rationale for three assumptions used to calculate the PIHOP
estimate. To illustrate, management did not document their support for the assumption
that 90 percent of denominated stamps are used within 1 year of purchase. The liability
is very sensitive to this percentage of usage — for example, a 1 percent decrease in the
90 percent usage assumption would increase the liability estimate by approximately $52
million. Thus, it is critical to ensure that management conducts sufficient analysis and
documents it for this and other critical assumptions.

Internal control standards8 require management to develop a standardized format of
documentation of the policies and procedures for all significant activities related to
financial reporting. These conditions occurred because changes in the PIHOP estimate
methodology were not always updated in the document supporting the PIHOP liability
for the financial statements or communicated and shared among personnel responsible
for developing, calculating, and reporting the PIHOP liability estimate. As a result, there
was an increased risk that the PIHOP liability estimate process would not be consistent
or transparent. See Appendix B for our detailed analysis of this topic.

7
  The Postal Service had three documents that described the Forever Stamp component calculation. None of the
documents discussed why the method was chosen.
8
  Committee of Sponsoring Organizations’ (COSO), Internal Control Over Financial Reporting – Guidance for Smaller
Companies, Volume II, Section II, Risk Assessment, Principle 13, page 62. June 2006.




                                                        2
Postage in the Hands of the Public Liability Estimate                                         FT-AR-11-006




We recommend the vice president, controller:

1. Develop a clear, single document of the procedures used, the assumptions made,
   the analyses conducted, and the rationale for methods used to estimate the Postage
   In the Hands Of the Public liability.

2. Implement a formal communication and information sharing process among
   personnel responsible for developing the liability estimate.

Management’s Comments

Management agreed with recommendation 1 but neither agreed nor disagreed with
recommendation 2. For both issues, management asserted that they have already
accomplished these recommendations by the process documentation prepared during
FY 2010 for Sarbanes-Oxley (SOX) compliance.9 Management noted the U.S. Postal
Service Office of Inspector General’s (OIG) assertion that the Postal Service did not
follow its own white paper is incorrect because the OIG misinterpreted documentation
provided during the audit. However, they agreed the documentation could have been
clearer. Regarding communication, management stated that white papers are not
comprehensive process or policy documents but issue-specific updates to accounting
estimates or calculations. Significant changes to any PIHOP component calculation are
formally documented via a white paper until management completes a formal SOX
documentation update. Management also advised that they discussed the calculation of
the liability and all assumptions in detail with the controller, chief financial officer (CFO),
and external auditors. See Appendix D for management’s comments in their entirety.

Evaluation of Management Comments

The OIG considers management’s comments responsive to recommendation 1. During
our audit, three separate documents existed that explained the PIHOP liability
calculation. However, late in FY 2010, management finalized a comprehensive
document for SOX compliance that describes the PIHOP liability estimate. We believe
the formal SOX documentation should resolve the documentation issue identified.

The OIG considers management’s comments not responsive to recommendation 2. The
purpose of the recommendation was to enhance communication among key personnel
during the calculation of the estimate, not communication of the resulting liability
estimate or process to others. Management’s comments address documentation of the
formal liability-estimate process but do not address communication or information
sharing among the various personnel responsible for developing the estimate during the

9
  The U.S. Congress enacted SOX legislation in calendar year (CY) 2002 to strengthen public confidence in the
accuracy and reliability of financial reporting. Section 404 of SOX requires management to state its responsibility for
establishing and maintaining an adequate internal control structure and make an assertion on the effectiveness of the
internal control structure over financial reporting. The Postal Service is required to follow Section 404 of SOX.




                                                           3
Postage in the Hands of the Public Liability Estimate                                      FT-AR-11-006



process itself. However, because management stated they discussed the liability
assumptions with the controller, CFO, and external auditors and has documented the
process for SOX compliance purposes, we will not pursue the issue further at this time.
We encourage management to incorporate regular communication between Corporate
Finance and Statistical Programs Office personnel into their process to ensure the
accuracy and reliability of the estimate, especially since management makes two
separate PIHOP estimates.

Separate Component Calculations

Management should enhance the separate calculations for each of the components of
the PIHOP liability. For example:

        Management did not include revenue from international Forever Stamp usage in
         calculating the Forever Stamp component of the PIHOP estimate.

        Management relied on a stamp usage assumption for calculating the
         denominated stamps component of the PIHOP estimate because they did not
         have actual stamp usage data by denomination.

        For the MIT component of the PIHOP estimate, management:

             ▫ Did not include all classes of mail in the “weighted average days in transit”
               variable. Some classes of mail are available but not in a format that can
               be used. In other instances, the data is not available.10

             ▫ Added half a day to the “weighted average days in transit” variable for mail
               “from the carrier’s case to delivery,” even though mail from the carrier’s
               case to delivery is included in the average days in transit calculation.11

        Management included eBay®/PayPal12 revenue in the meters component
         calculation of the PIHOP estimate when it was already appropriately recorded in
         the MIT calculation component.

Internal control standards recognize the importance of using complete and reliable data
for accounting estimates. This generally occurred because the data sources
management used (for example, RPW sampling-related information and NMATS
revenue information for eBay/PayPal) were not always available or did not always


10
   The “weighted average days in transit” are an estimate of the number of days mail is in transit at period end, by
class of mail, determined in a formula based in the RPW. Management used only three classes of mail (First Class,
Priority, and Package Services) to determine a weighted average of days in transit.
11
   Transit time measured by RPW is “the time between when a mailpiece comes into possession of the Postal Service
until the time that mailpiece is delivered to the addressee.”
12
   eBay/PayPal is a software program that enables the user to print postage from their personal computer to be used
with a variety of postal services with postage being paid from a credit or debit card.




                                                         4
Postage in the Hands of the Public Liability Estimate                  FT-AR-11-006



separate out the information necessary to calculate the PIHOP estimate. As a result, the
precision of the PIHOP estimate was reduced.

As a result of our audit, in Q3, FY 2010 management included international Forever
Stamp revenue in the PIHOP calculation, recognizing revenue of nearly $37 million.
They also excluded eBay/PayPal revenue of $58 million from the meter component
calculation, resulting in about $20 million in recognized revenue. Accordingly, we are
not making any recommendations on those issues at this time. See Appendix B for our
detailed analysis of this topic and Appendix C for our calculation of monetary impact.

We recommend the manager, Regulatory Reporting & Cost Analysis:

3. Evaluate and consider expanding, as appropriate, Revenue, Pieces, and Weight
   data collection to include stamp usage by denomination and all classes of mail for
   the mail-in-transit component of the calculation.

Management’s Comments

Management disagreed with recommendation 3, indicating it was not practical. Although
they agreed that they could improve the precision of the denominated stamp portion of
the liability if detailed information on stamp usage by denomination was available, they
noted that, because the Postal Service is quickly transitioning from denominated stamps
to Forever Stamps, it would not be prudent to implement RPW data collection changes
for this short time period. Management also advised that they currently include all
classes of mail where there is sufficient delivery data to calculate the days to delivery
piece of the MIT portion of the PIHOP calculation. In addition, they expect the Intelligent
Mail Barcode to provide data regarding days to delivery for Standard Mail and
Periodicals. When management has that data, they will consider changing the MIT
calculation to incorporate it.

Management also disagreed with our calculation of monetary impact related to Forever
Stamp international mail and eBay/PayPal revenues. Management stated that it merely
represents a timing difference as to when revenue is recognized, so there was no
financial risk or loss associated with the omission of international mail usage and
eBay/PayPal revenue from the calculation of the PIHOP estimate.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation. The
purpose of the recommendation was to improve the precision of the denominated stamp
portion of the PIHOP liability. While we continue to believe that expanding RPW data
collection would improve precision, we acknowledge the cost/benefit issue and the
future expected data collection benefits from the Intelligent Mail Barcode. Accordingly,
we will not pursue this issue further.




                                                        5
Postage in the Hands of the Public Liability Estimate                                     FT-AR-11-006



Further, it is OIG policy is to consider the amount the Postal Service is (or was) entitled
to receive but which it did not realize, as recoverable revenue loss. We do not dispute
that the funds were already collected; however, had the change not been made as a
result of our audit, the revenue would not have been recognized to offset operational
expenses during FY 2010. Therefore, we continue to believe the monetary impact is
appropriate.

We recommend the vice president, controller:

4. Eliminate the assumption to add half a day to the weighted average days in transit
   portion of the mail-in-transit component calculation.

Management’s Comments

Management disagreed with recommendation 4, stating the OIG assumed all mail
received at a delivery unit is delivered the same day. Management acknowledged this is
true for First Class Mail, but it is not true for all mail at delivery units. In many cases
Standard Mail arrives at a delivery unit with instructions for the postmaster to deliver the
mail within a range of dates. Since Standard Mail represents more than 50 percent of
the mail volume, adding the half day to the weighted average days in transit portion of
the mail-in-transit component calculation is reasonable.

Evaluation of Management’s Comments

Management’s comments are not responsive to the recommendation. We agree that a
portion of Standard Mail may not be delivered the same day; however, management
only includes three classes of mail (First-Class, Priority, and Packaging Services) in the
average days in transit portion of the MIT calculation and we found that all of those
classes of mail were delivered the same day the mail was received at the delivery unit.
Therefore, unless management expands the average days in transit portion of the MIT
calculation to include all classes of mail,13 the fact that Standard Mail represents more
than 50 percent of the mail volume and a portion may not get delivered the same day is
not relevant here, and the half day addition assumption is not necessary. As a result, we
do not believe management’s assumption accurately measures mail “from the carrier’s
case to delivery” because First Class Mail represents the majority of mail revenue14 and
is already included in the average days in transit measurement. However, because the
purpose of the recommendation was to increase the precision and the difference is not
material, we will not pursue the issue further at this time. We encourage management to
re-evaluate the reasonableness of their assumption to improve the precision of the
PIHOP estimate.



13
   See recommendation 3 where we recommend the vice president, controller, expand data collection to include all
classes of mail for the mail-in-transit component of the calculation.
14
   Both volume and revenue are used to develop the MIT portion of the liability estimate.




                                                        6
Postage in the Hands of the Public Liability Estimate                                     FT-AR-11-006



Financial Reporting

The level of evidence and transparency for deferred revenue at the Postal Service was
equal to or higher than levels for the two benchmarking partners we evaluated.
Nevertheless, considering management’s overall estimate and assumptions
surrounding this significant account15 and the frequency and magnitude of accounting
adjustments in FYs 2008, 2009, and 2010, the Postal Service should provide additional
detail in the financial statements regarding estimate development. This additional detail
should include any limitations of the data used to calculate the estimate. In response to
our audit, management intends to provide a more expansive disclosure regarding the
PIHOP liability estimate in the FY 2010 Form 10-K Report that includes information on
the PIHOP components that comprise the estimate and noted changes in the stamp
component calculation in FY 2009 and FY 2010. Because of the corrective action taken
and the fact that the Postal Service’s transparency equals or exceeds that of others we
evaluated, we are not making any recommendations at this time.

Forecasting

Management could strengthen the model and better inform stakeholders by using
existing sales trends, costs, projected revenue, mailpieces, and economic data to
develop a forecast model to predict future PIHOP liability estimates. For those instances
where several years of data are likely available (for example, NMATS16 and RPW), the
Postal Service could develop long-term mail volume trends, economic variables (such
as output, employment, and inflation), seasonal factors, and mail costs. As more
historical data regarding Forever Stamp purchase and usage becomes available, the
Postal Service could couple it with the already well-developed data histories for the
other PIHOP components to develop a forecast model that may help produce more
reliable PIHOP estimates.




15
   Public Company Accounting Oversight Board, Auditing Standard No. 5, An Audit of Internal Control Over Financial
Reporting That Is Integrated with An Audit of Financial Statements, as of November 9, 2007, Appendix A –
Definitions, describes significant accounts and disclosures as having “a reasonable possibility of containing
misstatements that would cause the financial statements to be materially misstated.”
16
   NMATS tracks all meter transactions, including applying postage to meters (meter settings).




                                                        7
Postage in the Hands of the Public Liability Estimate               FT-AR-11-006



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie Nelson, director,
Financial Reporting, or me at 703-248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachments

cc: Joseph Corbett
    Julie S. Moore
    Stephen J. Nickerson
    J. Ronald Poland
    Corporate Audit and Response Management




                                                        8
Postage in the Hands of the Public Liability Estimate                                         FT-AR-11-006



                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service initially records revenue from stamps and meter postage upon sale,
in advance of service performance. Because the Postal Service does not recognize
revenue until the service has been provided,17 it has developed a process (model) to
calculate an estimate for the unused portion of stamps, meters, pre-cancelled stamps,
and mail that is in transit at the end of a period.18

In FYs 2008 and 2009, the Postal Service modified its model because of changes in
consumer purchase and usage behaviors resulting from introduction of the Forever
Stamp in April 2007.19 As Table 1 illustrates, the PIHOP liability estimate fluctuates each
quarter because sales and usage patterns fluctuate.

               Table 1: PIHOP Liability Estimates – Q4, FY 2008–Q3, FY 2010

                                              Reported PIHOP                   Quarterly
                           Fiscal             Liability Estimate             Fluctuation
                          Quarter                (in millions)               (in millions)
                          Q4, 2008                 $(1,689.1)
                          Q1, 2009                 $(1,650.6)                     $38.5
                          Q2, 2009                 $(1,731.5)                    $(80.9)
                          Q3, 2009                 $(1,942.8)                   $(211.3)
                          Q4, 2009                 $(2,445.2)                   $(502.4)
                          Q1, 2010                 $(2,229.8)                    $215.4
                          Q2, 2010                 $(2,329.4)                    $(99.6)
                          Q3, 2010                 $(2,399.2)                    $(69.8)
                     Source: Accounting Data Mart20




17
   The Postal Service recognizes revenue when services are rendered (completed the delivery of the service).
Because payment is received in advance of services being performed, the Postal Service defers revenue until the
services are performed. This is classified as a liability, Deferred Revenue-Prepaid Postage, on the balance sheet in
the financial statements.
18
   The end of a fiscal quarter and year are the period ends. The Postal Service’s fiscal year ends September 30, while
the ends of fiscal quarters are December 31, March 31, and June 30.
19
   Prior to FY 2008, the Postal Service calculated the estimate for the stamp component similar to the meters
component. For FY 2008, the Postal Service refined the calculation to isolate applied sales and usage data for the
stamp component. For FY 2009, the Postal Service further refined the stamp calculation by applying newly available
Forever Stamp usage data to calculate a stand-alone PIHOP estimate for Forever Stamps.
20
   The Accounting Data Mart is the repository for all accounting- and finance-related data for the Postal Service and is
a part of the Enterprise Data Warehouse.




                                                           9
Postage in the Hands of the Public Liability Estimate                                       FT-AR-11-006



The Postal Service determined the calculations for the separate components that make
up the PIHOP estimate at the end of FY 2009 as follows:

        Forever Stamps: Management implemented a stand-alone “sales less usage”
         calculation for these stamps, using actual sales and estimated usage
         measurements based on RPW data. Management also subtracted an estimate of
         stamps sold that will never be used, referred to as “breakage.” The amount
         calculated at the end of FY 2009 was $1.176 billion, which represented
         48 percent of the total estimated PIHOP liability.

        Denominated Stamps: Management assumed that 90 percent of denominated
         stamps are used within 1 year of purchase based on analysis that revealed
         almost immediate customer usage upon purchase and increased usage prior to
         price increases. Accordingly, management calculated the denominated stamp
         component equal to 10 percent of the preceding 12 months of recorded sales,
         less a breakage factor for stamps sold that will never be used. The amount
         calculated at the end of FY 2009 was $517 million, which represented 21 percent
         of the total estimated PIHOP liability.

        Meters and Pre-Cancelled Stamps: The Postal Service recognizes postage
         meter revenue when postage is set on the meter. Management calculated a
         national deferral percentage21 and applied it to the recorded meter revenue for
         the month to calculate the estimated meter postage deferral. Because
         management viewed the sales and usage behavior of pre-cancelled stamps to be
         similar to meters, they used the same method to calculate the estimate for pre-
         cancelled stamps. The amount calculated at the end of FY 2009 was $493
         million, which represented 20 percent of the total estimated PIHOP liability.

        MIT: Management used RPW data for revenue and mail volume for the MIT
         component of the PIHOP estimate at the end of each quarter. The amount
         calculated at the end of FY 2009 was $259 million, which represented 11 percent
         of the total estimated PIHOP liability.

OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to review the model used to calculate the PIHOP estimate,
including the overall assumptions and inputs, to determine if opportunities exist for
improving the model and the financial reporting and predictability of the estimate.
To accomplish our objectives, we interviewed Postal Service managers responsible for
developing and reporting the PIHOP estimate and reviewed available documentation.
We contracted with IHS Global Insight, a consulting firm specializing in financial
modeling, to evaluate the model assumptions and inputs and to benchmark best

21
  Using current period meter register settings data from the NMATS, management calculated the average daily
usage to project daily usage through the end of the sample period. They compiled the data from all of the meters to
arrive at the national deferral percentage.




                                                         10
Postage in the Hands of the Public Liability Estimate                           FT-AR-11-006



practices. In addition, we also independently benchmarked a Fortune 500 company to
determine their practices regarding MIT.

We conducted this performance audit from December 2009 through January 2011 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management officials on November 5, 2010, and
included their comments where appropriate.

We relied on computer-generated data used to develop the PIHOP estimate. To assess
the reliability, we reviewed existing documentation and independently performed PIHOP
calculations based on model methodologies. We also interviewed Postal Service
personnel knowledgeable about the data and traced source data to the general ledger,
including sales data from the Accounting Data Mart. As such, we determined the data to
be sufficiently reliable.

PRIOR AUDIT COVERAGE

 Report Title                Report              Final       Report Results
                             Number              Report
                                                 Date
 Statistical Tests for       FF-AR-10-222        9/14/10     The Postal Service did not,
 Fiscal Year 2010                                            in 10 districts, (1) follow
                                                             procedures to determine the
                                                             appropriate random start
                                                             and mailpiece and/or
                                                             container skip intervals in
                                                             three districts, (2) verify
                                                             information keyed into the
                                                             Computerized On-Site Data
                                                             Entry System laptop in two
                                                             districts, and (3) follow
                                                             procedures for protecting
                                                             data collection equipment in
                                                             four districts. Management
                                                             agreed with the findings.




                                                        11
Postage in the Hands of the Public Liability Estimate                           FT-AR-11-006




 Statistical Tests for       FF-AR-10-015        11/20/09    The Postal Service did not
 Fiscal Year 2009 –                                          comply with prescribed
 Cost and Revenue                                            policies and procedures
 Analysis                                                    from conditions previously
                                                             reported in our FY 2008,
                                                             2007, and 2006 reports.
                                                             Management agreed with
                                                             the findings.
 Statistical Tests for       FF-AR-09-024        11/24/08     Data collectors did not
 Fiscal Year 2008 –                                           follow proper procedures.
 Cost and Revenue                                             Management agreed with
 Analysis                                                     the findings.




                                                        12
Postage in the Hands of the Public Liability Estimate                                      FT-AR-11-006



                                APPENDIX B: DETAILED ANALYSIS

PIHOP Documentation

Management did not follow its white paper documenting the methodology for calculating
the Forever Stamp component of the FY 2009 PIHOP estimate. Also, management did
not document their analyses or rationale for choosing their method for the Forever
Stamp calculation or for three assumptions used to calculate the PIHOP estimate.
Management prepared a white paper describing how the Postal Service calculated the
FY 2009 year-end estimate for the Forever Stamp component that included
developments from an October 2009 analysis22 further documenting the calculation.
Neither of these documents outlined the actual method used to calculate the Forever
Stamp component of the PIHOP liability estimate. Rather, management used a
spreadsheet titled USPS Model Forever Stamps Only (Stamp PIHOP Spreadsheet),
prepared by Corporate Financial Reporting, for the calculation.23 In addition, the
methods illustrated in these documents conflicted with each other. For example:

        The white paper stated the methodology included an application of a leveling
         factor24 for the calculation, but the October 2009 analysis and the Stamp PIHOP
         Spreadsheet did not. For the actual calculation, a leveling factor was not used. If
         a 1.6 percent leveling factor was used, Forever Stamp usage would have
         decreased by $116 million, increasing the PIHOP estimate for the Forever Stamp
         component.
        The white paper and the October 2009 analysis depicted a “probability of
         usage”25 method for calculating Forever Stamp revenue and deferred revenue.
         However, management actually used an “intuitive estimate”26 for the Forever
         Stamp component and made additional undocumented changes which resulted
         in lowering usage by $23 million and increasing the PIHOP estimate.

Management did not provide information on its process for reviewing and analyzing
these methods or their rationale for choosing the method ultimately used to derive the
PIHOP liability estimate. As shown in Table 2, variations in outcomes result when
management applies the different methods for calculating the Forever Stamp
component as depicted in the documents.


22
   Forever Stamp Unused Postage Study, dated October 29, 2009. Management stated this document was the new
Forever Stamp model.
23
   This spreadsheet depicts the methodology in the Postal Service’s Governance, Risk, and Compliance flowchart
process.
24
   Management implemented an estimation methodology in Q3, FY 2008, based on sales and usage data for all
stamps. The methodology included a new “leveling factor” calculation for stamped mail only, applied to stamp usage.
The leveling factor assumes that over a period of time (judgmentally selected as 3 years) sales and usage of stamps
should equalize.
25
   Determination of the dollar value of stamps used, based on the probability percentage of retained Forever Stamps
available for usage.
26
   An estimate of the dollar value of the stamps used, based on the changes in sales price from 41 cents to 42 cents
to 44 cents as determined by the Revenue and Volume Reporting group. The intuitive estimate was used to
determine the dollar value of the stamps used in both the October 2009 analysis and the Stamp PIHOP Spreadsheet.




                                                        13
Postage in the Hands of the Public Liability Estimate                                        FT-AR-11-006



       Table 2. Forever Stamp Methodologies for the September 30, 2009 Estimate

                                                                  Forever Stamp
                                                                 Balance Used in
                                            Forever            Calculation of PIHOP
                                            Stamp               Liability Shown in
                                           Balance               General Ledger                   Difference
                                         (in millions)             (in millions)                 (in millions)
     Stamp PIHOP
                                             $1,176                      $1,176                         0
     Spreadsheet
     White Paper                             $1,242                      $1,176                        $66
     October 2009 Forever
                                             $1,501                      $1,176                       $325
     Stamp Study
     Revised October 2009
     Forever Stamp Study                     $1,123                      $1,176                       $(53)
     (Revised February 2010)
 Source: Accounting Data Mart

Also, management did not document their analysis or rationale for three assumptions
used to calculate the PIHOP estimate:

          For the denominated stamps calculation, management assumed that 90 percent
           of stamps are used within 1 year of purchase. See Table 3 for the impact of a 1
           percent change in the assumption.

                    Table 3. Denominated Stamps Component Comparison

                                                                                               Estimated
                                                                                             Denominated
                                                                        Percentage              Stamps
                                               FY 2009 Sales             Assumed              Component
                                                (in millions)             Unused             (in millions)
      FY 2009 PIHOP computation                    $5,171                  10%                   $517
      1% Change                                    $5,171                  11%                   $569
      Difference                                                                                  $52
     Source: Accounting Data Mart

          For the MIT calculation, management assumed that 50 percent of the MIT was
           processed at any given point in time. See Table 4 for the impact of changing the
           assumed percentage of mail processed at a given time.27



27
  The auditor estimate of 67 percent was based on a 3-day work cycle. At any given point in time, two-thirds of the
mail in transit has not been earned. Specifically, the estimate is based on a 2-day delivery time frame and the
additional day for mail on the “front end” (processing) and “back end” (delivery).




                                                         14
Postage in the Hands of the Public Liability Estimate                                            FT-AR-11-006




                      Table 4. MIT Unearned Mail Percentage Comparison

                                             Mail in the                Percent
                                             Mailstream                Assumed                 MIT Component
                                            (in millions)            Unearned Mail              (in millions)
 Assumption Used in
 September 30, 2009                             $518.5                      50%                       $259.2
 PIHOP Liability Calculation
 Change in Unearned Mail
                                                $518.5                      67%                       $347.3
 Percentage
 Difference                                                                                            $88.1
Source: 2009 White Paper – PIHOP Meters, Mail-in-Transit & Pre-cancelled Stamps, dated October 26, 2009

        For the MIT calculation, management added 1 day28 to the “weighted average
         days in transit” calculation to compute the mail revenue in process at period end.
         See Table 5 for the impact of not including one-half day to the “weighted average
         days in transit” calculation.

              Table 5. MIT Comparison With and Without Half a Day Addition

                                                      Total MIT
                                                      Revenue              Percentage           Deferred MIT
                                                    (in millions)            Earned             (in millions)
      With Half a Day Addition                          $518                  50%                   $259
      Without Half a Day Addition29                     $430                  50%                   $215
      Difference                                                                                     $44
     Source: 2009 White Paper – PIHOP Meters, Mail-in-Transit & Pre-cancelled Stamps, dated October 26, 2009

As shown in Tables 3, 4, and 5, minor changes in these assumptions can significantly
impact the PIHOP liability estimate.

These conditions occurred because changes in the PIHOP estimate methodology were
not always updated in the document supporting the PIHOP liability for the financial
statements, or communicated and shared among personnel responsible for developing,
calculating, and reporting the PIHOP liability estimate. As a result, there was an
increased risk that the PIHOP liability estimate process would not be consistent or
transparent.


28
   The 1 day is comprised of half a day for mail awaiting pick up (front end mail) and half a day for mail out for delivery
(back end mail).
29
   Management adds half a day to the weighted days in transit for “mail from carrier’s case to delivery.” However, the
average days in transit measurement already includes the day of delivery so there is no need to add that half a day.
Handbook F-75, Data Collection User’s Guide for Revenue, Volume, and Performance Measurement System, defines
the transit time as the time between a mailpiece coming into the possession of the Postal Service and the time of
delivery to the addressee.




                                                            15
Postage in the Hands of the Public Liability Estimate                                      FT-AR-11-006




Component Calculations

Forever Stamp International Mail Revenue

Management did not include revenue from international Forever Stamp usage in
calculating the Forever Stamp component of the PIHOP estimate.30 We presented the
issue to management on July 19, 2010, and, as a result, they incorporated this data into
the estimate, which reduced the PIHOP liability and increased revenue by $36.9 million
in Q3, FY 2010.

Denominated Stamps

Management could improve the denominated stamps component calculation by
obtaining stamp usage data by denomination. Management used an assumption that 90
percent of denominated stamps (representing 57 percent of stamp sales in FY 2009)
were used within 1 year. Internal control standards31 require identification and capture of
pertinent information used for accounting estimates. This occurred because RPW
sampling information did not include the amount of each denominated stamp on a
mailpiece and, unlike the Forever Stamp, there were no historical data available to
recreate the starting point for calculating the PIHOP liability estimate. As a result, the
precision of the PIHOP liability estimate is reduced.

MIT

Management did not include all classes of mail in the “weighted average days in transit”
portion of the MIT component of the PIHOP liability calculation. Some classes of mail
are available but not in a format that can be used. In other instances, the data is not
available. The “weighted average days in transit” factor is used to calculate, by class,
the dollar value of mail in transit at period end. Specifically, management used three
classes of mail (First-Class, Priority, and Packaging Services) to estimate the total
volume of pieces in the mail system. These classes represented 65 percent of the mail
revenue. Therefore, all additional classes of mail (for example, standard mail and
Periodicals) — representing 35 percent of the mail revenue — were not represented in
the MIT calculation. As a result, approximately $182 million of the actual MIT estimated
at the end of FY 2009 was not represented in the calculation.32 Assigning an additional
day in transit for the unrepresented classes of mail in this calculation would increase the
MIT component of the PIHOP liability estimate by approximately $31 million.


30
   The Revenue Throughput Report (also known as the “ORPW Sample Stamped Mail Summary w/o BRAF”)
includes Forever Stamp usage data, but does not include international Forever Stamp usage data.
31
   COSO Internal Control Over Financial Reporting – Guidance for Smaller Companies, Volume II, Section IV,
Information and Communication, Principle 15, page 76, June 2006.
32
   Using Q4, FY 2009, Quarterly Statistics Reports, we estimated 35 percent of the mail revenue was not included in
the “weighted average days in transit” portion from RPW. We applied this percentage to the $518.5 million estimated
“Total Mail in Process Revenue” for September 2009 to derive the $182 million.




                                                        16
Postage in the Hands of the Public Liability Estimate                                       FT-AR-11-006



Internal control standards33 recognize that complete and reliable data is critical to
providing accurate information in financial reports. This occurred because the RPW
data, currently used to compute the MIT component of the PIHOP liability estimate, did
not include all the information necessary to support the PIHOP calculation. However,
other sources of data could provide necessary information for reliable “weighted
average days in transit” measurements.34

Also regarding MIT, management inappropriately added half a day to the “weighted
average days in transit” portion of the MIT component of the PIHOP liability calculation.
Specifically, management added half a day to the calculation for mail “from the carrier’s
case to delivery.” However, RPW data used for the calculation included the full day of
delivery, in essence adding an extra half a day to the calculation. Postal Service
personnel did not know why they added the half a day, as it had always been part of the
calculation. Postal Service policy defined the transit time as the time between a
mailpiece coming into the Postal Service’s possession and the time of delivery to the
addressee.35 As a result, the September 30, 2009, MIT component of the PIHOP liability
calculation was increased by $44 million.

eBay/PayPal Revenue

Management included revenue from the eBay/PayPal portion of PC Postage®36 in the
meters component calculation of the PIHOP liability estimate when it is already
appropriately recorded in the MIT component calculation. This occurred because
management did not believe it could separate eBay/PayPal revenue from meter
revenue. However, we found that eBay/PayPal revenue was segregated in Postal
Service journal vouchers37 and, therefore, could be excluded from the meters
component calculation. Excluding this revenue from the PIHOP liability estimate was
consistent with two foreign posts with whom we benchmarked. Neither of those posts
defers their equivalent of eBay/PayPal revenue. As a result of our audit, in Q3, FY 2010,
management excluded eBay/PayPal revenue of $58 million from the meter component
calculation, resulting in about $20 million in recognized revenue.




33
   COSO Internal Control Over Financial Reporting – Guidance for Smaller Companies, Volume II, Section IV,
Information and Communication, Principle 15, page 76, June 2006.
34
   Headquarters’ Demand Forecasting and Analysis group projects revenue and pieces information and provides
estimates to Corporate Financial Reporting on a quarterly basis.
35
   Handbook F-75, Data Collection User’s Guide for Revenue, Volume, and Performance Measurement System,
Glossary, page GL-22.
36
   PC Postage products and services allow customers to purchase and print postage using a personal computer
connected to the Internet and a printer.
37
   A journal voucher is a document that authorizes a business transaction to be entered in the book of accounts.




                                                         17
Postage in the Hands of the Public Liability Estimate                                       FT-AR-11-006



                                 APPENDIX C: MONETARY IMPACT

We calculated revenue related to international Forever Stamp usage and eBay/PayPal
as follows:

                                     Recoverable Revenue Loss38

           Finding Title                      Revenue Calculation                               Amount
      Forever Stamp                   Cumulative International Forever
      International Mail              Stamp usage from April 2007 through
      Revenues                        June 2010 not previously included in
                                      PIHOP liability estimate calculation.                    36,828,101
      eBay/PayPal                     eBay/PayPal revenue for June 2010:
      Revenue                         ($58,052,614 x 34% PIHOP liability
                                      estimate percentage for June 2010).39                   $19,737,889


                                      TOTAL                                                   $56,565,990




38
   The amount the Postal Service is (or was) entitled to receive but which was underpaid or not realized because
policies, procedures, agreements, requirements or good business practices were lacking or not followed.
39
   Management calculated meter deferral percentage for June 2010 based on the NMATS poll of all the meter
settings and usage for the month.




                                                         18
Postage in the Hands of the Public Liability Estimate        FT-AR-11-006



                         APPENDIX D: MANAGEMENT’S COMMENTS




                                                        19
Postage in the Hands of the Public Liability Estimate        FT-AR-11-006




                                                        20
Postage in the Hands of the Public Liability Estimate        FT-AR-11-006




                                                        21
Postage in the Hands of the Public Liability Estimate        FT-AR-11-006




                                                        22
